    FINANCIAL ARRANGEMENTS
 BETWEEN PHYSICIANS AND HEALTH
  CARE BUSINESSES: STATE LAWS
        AND REGULATIONS
                    Management Advisory Report




                       RICHARD P. KUSSEROW
                        INSPECTOR GENERAL




OAI. 12-88. 01412                                APRIL 1989
                             INTRODUCTION


 PURPOSE

 section 203 (c) (3) of the Medicare Catastrophic Coverage Act of
 1988 mandated the Office of Inspector General to study and
 report to Congress concerning:

             physician ownership of, or compensation from, an

             entity providing items or services to which the

             physician makes referrals and for which paYment may

             be made under the Medicare program;


             the range of such arrangements and the means by which

             they are marketed to physicians;

             the potential of such ownership or compensation to

             influence the decision of a physician regarding

             referrals and to lead to inappropriate utilization of

             such items and services; and

             the practical difficulties involved in enforcement

             actions against such ownership and compensation

             arrangements that violate current anti-kickback

             provisions.
In order to collect relevant background information and set the

context for this study, the Office of Inspector General

interviewed State officials regarding their perspectives and

experiences in the area of physician ownership. This

Management Advisory Report (MAR). reports on responses from
those interviews concerning state requirements and legal
barriers affecting physicians who refer to health care
businesses in which they are financially vested.

BACKGROUND

In the last ten years, increasing attention has been focused on

the financial arrangements that exist between physicians and

the health care businesses to which they refer patients. 

1980, an influential article in 

                                  The New Enaland Journal of
Medicine by the journal' s editor, Dr. Arnold Relman, elicited
strong debate in the medical community concerning the
appropriateness of such arrangements and the impact that they
might have on medical judgments made by physicians in
determining what services their patients     require.
public scrutiny of those financial arrangements hasSince   then,
                                                      increased.
In 1982, the Subcommittee on Oversight and    Investigations,
Coromi ttee on Energy and Commerce, U. S. House of
 Representatives, expressed its concern regarding the emergence

 of such arrangements. In 1988, a bill that would generally
 prohibi t physicians from referring' to health care businesses in
 which they hold financial interests was introduced in the
 House of Representatives. That bill, "The Ethics in Patient u. S.
 Referrals Act, " was reintroduced in 1989 and is now pending.
 The Subcommittees on Health and Oversight , Committee on Ways

 and Means held a j oint hearing on the bill in March
 Further hearings are anticipated.                     1989.
 Currently the Federal anti-kickback law prohibits
 receiving, offering or paying anything of value in soliciting,
                                                     return for
 the referral of a health care item or service payable under the
 Medicare or Medicaid program. (42 U. C. Section 1320a-7b.
 Since the law could be interpreted to prohibit a wide range of
 conduct--including physician ownership and self-referral-­
 Congress directed the Secretary of HHS to promulgate
 regulations specifying " safe harbors " that is
                                               , conduct which
 would not be subject to the anti-kickback statute. A Notice of
 Proposed Rulemaking (NPRM) was issued on January 23 , 1989 (54
 Fed. Reg. 3088) that proposes to establish certain such  "
                                                            safe
harbors.    The NPRM proposes a safe harbor for physicians with
investment interests in large publicly held corporations, but
does not do so for any other types of investment or ownership

arrangements. Thus, if the NPRM were to take effect as
proposed, such types of arrangements would continue to be
subj ect to the scrutiny of Federal law enforcement officials on

a case by case basis.
The only specific Federal prohibitions which currently exist

against physician ownership and self-referral concern home

intravenous (IV) drug therapy and home health agencies. The
Medicare Catastrophic Coverage Act of 1988 prohibits a home    IV
therapy provider from providing .. services to a Medicare patient
when such services have been ordered by a physician with a

financial interest (including financial interest held through
an immediate family member) in the provider. Some exceptions,
such as for a sole rural provider or financial interest in a
publicly traded company, are made. Federal regulations also
prohibit physicians from certifying the home health plan of
care for a beneficiary if they own more than 5 percent of the

home health agency which will provide the care.

Despite the intense debate over this issue, few studies have

been conducted to determine the extent of such arrangements

between physicians and the health care businesses to which they

refer patients, or the impact of such arrangements on

util ization ofservices, cost and pricing, competi ti veness,
                                                              and
         of care.
quali ty '        This MAR is the first in a series of reports
to be issued by the Office of Inspector General
subject.                                         (OIG) on this

METHODOLOGY

The OIG conducted interviews with 143 individuals in 50 States.
In most cases, three individuals were interviewed in each
State.  The individuals interviewed represented Medical
Licensing Boards, State Medicaid agencies, Medicaid Fraud
Control Units (MFCUs), and State Attorney General' s offices.
The interviews collected information on State laws or
regulations that (1) prohibit referrals by physicians with
financial interests in certain health care businesses; (2)
require disclosure of such arrangements to the public; or
forbid paYment for referrals. The OIG did not conduct a (3)
comprehensive review of State laws through independent legal

research, and state statutes cited by respondents may not

reflect the full range of State requirements in this area.
However, laws that were cited by state officials were
documented and confirmed through reviewing State codes.
                             FINDINGS

 No resDondents indicated that their states have an outricrht ban
 on Dhvsicians ownina a health care entitv. However.
 respondents in Michiqan cited a law in their state which f rbid
 physicians from referrincr ~atients to an enti tv in which they
 have financial interests.
Michigan law forbids "directing or requiring an individual to

purchase or secure a drug, device, treatment, procedure, or

service from another person, place, facility or business in

which the licensee has a financial interest.   This statute was

challenged by two physicians in 1979 who contended that the

language of the law was unconstitutionally vague and therefore

void.  Based on the challenge, the Circuit Court for the County
of Oakland, state of Michigan, issued a preliminary injunction
against enforcing the law in July 1979. In October 1982, the
Court upheld the constitutionality of the law and vacated the
preliminary injunction. The law remains in effect at this

time.
Two physicians have recently requested a declaratory rUling
from the Michigan Board of Medicine on the meaning of the words
"directing or requiring" under, the law.   The question for which
the physicians seek a declaratory ruling is whether "directing
or requiring" is synonomous with " referring.    The physicians
seeking a ruling have posted signs in their offices noting
their financial relationships with other facilities and the
patient I s freedom in choosing another facility. They argue, in
the request for a ruling, that   ... the patient is fully
informed of the relationship anq can make a choice, and so is
not commanded, ordered or compelled to use the physician
enti ty . Thus the physician is not directing or requiring'
wi thin the meaning of (Michigan law), and does not violate
(the) statute.     The Michigan Board of Medicine is currently

reviewing the petition.


Manv states have laws or reaulations prohibitina Dhvsicians
from exoloi tina Datients for financial crain.

While only Michigan forbids physicians from referring patients

to entities in which they have a financial interest, many

states forbid physicians from referring patients for goods and

services where such referral is unnecessary or is only made to

financi~lly benefit the physician. For example, California law
states that "it shall not be unlawful for any person.. . to refer
a person to any laboratory, pharmacy, clinic or health care

facility solely because such licensee has a proprietary

interest or co-ownership in such laboratory, pharmacy, clinic

or health care facility; but such referral shall be unlawful

 if. .   there was no valid medical need for the referral.
                                                             Rhode
 Island law prohibits " promotion by a physician.. . of the sale of
 drugs, devices, appliances or goods or services provided for a
 patient in such a manner as to exploit the patient for the
 financial gain of the physician....
 Missouri law protects patients by ensuring freedom of
 as do several other States. Grounds for revocation ofchoi~~,
                                                            a
 physician I s license in Missouri include " ... requiring, as a
 condi tion of the physician- patient relationship, that the
 patient receive prescribed drugs, devices, or other
 professional services directly from facilities of that
 physician I s office or other entities under that physician I s
 ownership or control.

ResDondents from 11 states cited laws or reaulations which

sDecificallv reQUire a phvsician to disclose a financial

interest to Datients. or that forbid phvsicians from referring
patients to entities in which they hold a financial interest
unless disclosure to the patient is made. The strinaencv of
this reQUirement. however. varies from state to State.

At least 11 States specifically require physicians to disclose
their financial interest to patients when referring patients to
health care providers in which they are financially
These States include Arizona, California, Delaware vested.
                                                   , Florida,
Massachusetts, Minnesota, Nevada, Pennsyl vania, Virginia,
Washington, and West Virginia.


Disclosure requirements vary greatly from State to
States do not specify what form the disclosure must   State. Many
                                                      take.
However, Minnesota' law specifies' that disclosure must be made
in advance and in writing and must include a statement
indicating that the patient is free to choose a different
health care provider.   Washington law requires an affirmative
disclosure "to the patient in writing.

Other States require disclosure only in certain circumstances
or when certain specialties of practice are involved.
Florida I s disclosure requirement, ,for example, applies when the
referring physician has an equity interest of 10 percent or
more. Virginia I s law applies to " any financial interest of or
ownership by the practitioners....      Massachusetts I disclosure
requirement applies only to referral of patients fors physical
therapy services. 

  Resoondents from 36 states cited state laws which prohibit
  physicians from receivina or aivinq oaYments for patient
  referrals.  These laws are aenerall v similar to the Federal
  statute which prohibits paYment for referrals.
  section 1128B(b)of the Social Security Act prohibits
 individuals from soliciting, receiving, offering or paying
 anything of value in return for the referral of a health care
 item or service which is payable under the Medicare or the
 Medicaid programs. Many States have laws which are similar to
 the Federal anti-kickback law.
 Most States consider the practice of receiving or giving
 payment for referrals unprofessional conduct and prohibit it in
 their medical practice  act.   For example, the State of
 Arizona I s medical practice act contains a section on defining
 unprofessional conduct. It states that unprofessional conduct
 includes " charging a fee for services not rendered or dividing
 a professional fee for patient referrals.€
 Delaware I s medical practice act contains a similar   provision.
 It states that " paYment of a fee by a physician to another
 physician who has referred the patient to him, unless the fee
 is in proportion to work actually performed by the referring
 physician" is unethical.
 Grounds for medical disciplinary action in Idaho include
 "division of fees or gifts or agreement to split or divide fees
 or gifts received for professional services with any person,
 insti tution or corporation in exchange for a referral.
 The overwhelmina maioritv of resoondents resoonsible for
 enforcina apolicable State statutes reported that they were
 unable to monitor for comoliance of existina laws.
Only two State officials reported that their offices have
enough resources to search out violations of existing laws.
The rest of the State officials which dealt with enforcement
stated that they were only able to enforce the laws in a
reactive manner. This would include following up on tips and
compl~ints . For example, one State official stated that his
office " gets cases primarily though complaints and ~econdarily
through utilization exception reports.    Another respondent
stated, "We don t have a mechanism to monitor anything other
than complaints from individuals and information from follow~up
 investigations. €
Most respondents noted that a lack of resources prevent them
, from enforcing these lawsin a more aggressive manner.
Addi tional impediments cited were vagueness in the law and
priori ties in other areas.
certain states are now reviewina the practice of ohvsician
ownership and self-referral.
Several states are now reviewing the practice of physician
ownership and self-referral. The New York state Health
Commissioner created an ad hoc committee to meet with the
publ ic this year and gather comments on ethical or other
concerns the publ ic may have regarding the practice. Further
hearings are scheduled. The Health Care Committee of the
Florida House of Representatives is currently collecting
information on the practice and may conduct a study on such
arrangements in Florida.
                         1'"U.K'J.'   1fJ!a(   REPORTS

The OIG ' will produce additional reports on the         subj ect
financial arrangements between referring physicians and other
heal th care businesses.

On May 1, 1989, the OIG will report to Congress on the areas
outlined in section 203 (c) (3) of the Medicare Catastrophic
Coverage Act. This report will detail information obtained

from OIG surveys in regard to the nature, range, and prevalence

of ownership and compensation arrangements between physicians

and health care businesses. Information from the Medicare Part
B Annual Data (BMAD) files will be used to assess use of
selected ancillary services by patients associated with

physician owners or investors, as compared to use of ancillary

services by Medicare beneficiaries in general. The report will

also detail the enforcement experiences of the OIG in
connection with physician ownership or compensation
arrangements which violate Federal anti-kickback laws.
Reports focusing on physician ownership and other market forces
in the independent clinical laboratory, independent
physiological laboratory, and durable medical equipment
industries will be issued in Fall 1989.
                  APPENDIX A
STATE LAWS AND REGULATIONS CITED BY RESPONDENTS
                  APPENDIX A
STATE LAWS AND REGULATIONS CITED BY RESPONDENTS
 ALABAMA€

 ALA. CODE ~ 22-1-11.  Makina false statement or representation of

 material fact in claim or apPlication for oayments on medical

 benefi ts from medicaid agencv aenerall v:
 etc. : exceptions: multiple offenses.
     kickbacks. bribes€


   (b) Any person who solicits or receives any
                                               remuneration€
   (including any kickback, bribe, or rebate) directly or

   indirectly, overtly or covertly, in cash or in
                                                     kind:€
          (1) In return for referring an individual to a person for

         the furnishing or arranging for the furnishing of any item

         or service for which paYment may be made in whole or in

         part by the medicaid agency or its agents
                                                    , or

          (2) In return for purchasing, leasing, ordering, or

         arranging for or recommending purchasing,
                                                    leasing, or

         ordering any good, facility, service, or item  for which

         paYment may be made in whole or in part by the medicaid

         agency, or its agents shall be guilty of a felony and upon



                , or both.
         conviction thereof, shall be fined not more than $10,

         or imprisoned for not less than one nor more than five000€
        years

ARIZONA€

Medical Practice Act


ARIZ. REV. STAT. ANN. i 32-1401.
                        
          Definitions€
  12. "Unprofessional conduct" includes the following acts

  whether occurring in this state or
                                      elsewhere:€

        (u) Charging a fee for services not rendered or

        dividing a professional fee for patient
                                                  referrals.€

        (ff) Knowingly failing to disclose to a patient on

        a form prescribed by the board which is dated and

       signed by the patient or guardian acknowledging

       that the patient or guardian has read and

       understands that the doctor has a direct pecuniary

       interest in a separate diagnostic or treatment

       agency or in non-routine goods or services which

       the patient is being prescribed and if the

       prescribed treatment, goods or services are

       available on a competitive basis.
       does not apply to a referral by one This subdivision

                                            doctor of

Page 2



          medicine to another doctor of medicine wi thin a

          group of doctors of medicine practicing together.



ARI Z. REV. STAT. ANN. i       36-472.   Rebates. fee-spl i ttina   and
solicitation of referrals orohibited.

  A. The owner or director of a laboratory shall not personally
  or through an agent solicit the referral of specimens to his or
  any other laboratory in a manner which offers or implies an
  offer of rebates to persons submitting specimens or other fee-
  splitting inducements or participate in any fee-splitting
  arrangement. This applies to contents of fee schedules
  billing methods or personal solicitation. The . contractual
  provision of laboratory services for a fixed fee independent of
  the number of specimens submitted for such services is
  declared to be a violation of this section.
  B. The bill to' the patient shall specify the actual charge by
  the reference laboratory together with the reasonable specimen
  collection charge by the referring laboratory or physician.
ARIZ. REV. STAT. ANNOT. 

                        S 13-3713. Consideration for referral of

patient. client or customer: fraud: violation: classification.

  A. A person who knowingly offers, delivers , receives or

  accepts any rebate , refund, commission, preference or other

  consideration as compensation for referring a patient, client

  or customer to any individual, pharmacy, laboratory, clinic or

  health care institution providing medical or health-related

  services or items pursuant to title 11, chapter 2, article 7

  (footnote omitted) or title 36, chapter 29, other than

  specifically provided for in accordance with title 11, chapter

  2, article 7 or title 36, chapter 29 (footnote omitted), is
  guil ty   of:
                  1. A class 3 felony if the consideration had a          value

                  of one thousand dollars or 
  more.
                  2. A class 4 felony if the consideration had a          value

                  of more than one ' hundred dollars but less than        one
                  thousand dollars.
                  3. A class 6 felony if the consideration had a          value
                  of more than one hundred dollars or less.
CALIFORNIA

CAL. BUS. & PROF. CODE 
         Consideration for referral of
pa tients. cl ients. or customers.
                         i 650.




  Except as provided in Chapter 2. 3 (commencing with Section
  1400) of Division 2 of the Health and Safety Code the offer,
  delivery, receipt or acceptance, by any person licensed under

  this division of any rebate, refund, commission, preference,

Page 3


  patronage dividend, discount, or other consideration, whether
  in the form of money or otherwise, as compensation or
  inducement for referring patients, clients, or customers to ~ny
  person, irrespective of any membership, proprietary interest or
  co-ownership in or with any person to whom such patients
  clients or customers are referred is unlawful.
  Except as provided in Chapter 2. 3 (commencing with Section
  1400) of Division 2 of the Health and Safety Code it shall not
  be unlawful for any person licensed under this division to
  refer a person to any laboratory, pharmacy, clinic, or health
  care facility solely because such licensee has a propriety
  interest or co-ownership in such laboratory, pharmacy,  clinic,
  or health care facility; but such referral shall be unlawful if
  the prosecutor proves that there was no valid medical need for
  the referral.€
CAL. BUS. & PROF. CODE ~ 654. Prohibited arranaements between
opticians and medical licensees.
  No person licensed under Chapter 5 (commencing with Section
  2000) of this division may have any membership, proprietary
  interest or co-ownership in any form in or with any person
  licensed under Chapter 5. 5 (commencing with section 2550) of
  this division to whom patients, clients or customers are
  referred or any profit-sharing arrangements.
~ 654.  Prohibited referrals of patients: clients or customers to
certain laboratories: exceotions: violations: penal

  Persons licensed under Chapter 4 (commencing with Section
  1600) of this division or licensed under Chapter 5 (commencing
  with section 2000) of this division or licensed under any
  initiative act referred to in this division relating to
  osteopaths may not refer patients, clients, or customers to any
  clinical laboratory licensed under section 1265 in which the
  licensee has any membership, proprietary interest, or co-
  ownership in any form, or has any profit-sharing arrangement,
  unless the licensee at the time of make such referral discloses
  in writing such interest to the patient, client, or customer.
  The written disclosure shall indicate that the patient may
  choose any clinical laboratory for purposes of having any
  laboratory work or assignment performed.


  654. Prohibited charges. billinas. solicit ations. or
referrals: written disclosure of beneficial interests to
patients or third-Dartv pavers: definitions: apolication of
section.€
  (a) It is unlawful for any person licensed under this division
  or under any initiative act referred to in this division to
  charge, bill, or otherwise solicit payment from a patient on
Page 4



  behalf of, or refer a patient to, an organization in which the
  licensee, or the licensee' s immediate family, has a significant
  beneficial interest, unless the licensee first discloses in
  wri ting to the patient, that there is such an interest and
  advises the patient that the patient may choose any
  organization for the purpose of obtaining the services ordered
  or requested by the licensee.
   (b) The disclosure requirements of subdivision (a) may be met
  by posting a conspicuous sign in an area which is likely to be
  seen by all patients who use the facility or by providing those
  patients with a written disclosure statement. Where  referrals,
  billings, or other solicitations are between licensees who

  contract with multispecialty clinics pursuant to subdivision

  (l) of section 1206 of Health and Safety Code or who conduct

  their practice as members of the same professional corporation

  or partnership, and the services are rendered on the same

  physical premises, or under the same professional corporation

  or partnership name, the requirements of subdivision (a) may be

  met by posting a conspicuous disclosure statement at a single

  location which is a common area or registration area or by
  providing those patients with a written disclosure statement.

COLORADO

COLO. REV. STAT. i 12-36-125.  Division of fees - indeoendent

advertisina or marketina aaent.


  (1) (a) If any person holding a license issued by the board or
 by the state board of medical examiners as constituted under
 any prior law of this state divides any fee or compensation

 received or charged for services rendered by him as such

 licensee or agrees to divide any such fee or compensation with

 any person, firm, association or corporation as pay

 compensation to such other person for sending or bringing any

 patient or other person to such licensee, or for recommending

 such licensee to any person, or for being instrumental in any

 manner in causing any person to engage such licensee in his

 professional capacity; or if any such licensee shall either

 directly or indirectly pay or compensate or agree to pay

 compensate any person, firm, association, or corporation for

 sending or bringing any patient or other person to such

 licensee for examination or treatment, or for recommending such

 licensee to any person, or for being instrumental in causing

 any person to engage such licensee in his professional

 capacity; or if any such licensee, in his professional capacity

 and in his own name or behalf, shall make or present a bill or

 request a payment for services rendered by any person other

 than the licensee, such licensee commits a class 3 misdemeanor

 and shall be punished as provided in section 18-1-106, C.

  page ' 5

  DELAWARE

 DEL. CODE ANN. tit.                               31, ~ 1005. 
   Kickback schemes and

 solicitation.
          (a) It shall be unlawful for any person to solicit or receive
          any remuneration (including kickback, bribe or rebate) directly
          or indirectly, overtly or covertly, in cash or in kind:

                   (1) In return for referring an individual to a provider

                   for the furnishing or arranging for furnishing of any

                   medical care or medical assistance for which payment may

                   be made in whole or in part under any public assistance

                   program; ,or

          (b) It shall be unlawful for any person to offer or pay any

          remuneration (including any kickback, bribe or rebate)
          directly or indirectly, in cash or in kind to induce to any

          other person:


                  (1) To refer an individual to a provider for the

                  furnishing or arranging for the furnishing of any medical

                  care or medical assistance for which payment may be made

                  in whole or in part under any public assistance program;


                  (2) To purchase, lease, order or arrange for or recommend

                  purchasing, leasing or ordering any property, facility,
                  service, or item of medical care or medical assistance for

                  which paYment may be made in whole or in part under any

                  public assistance program.

      Delaware Board of Medical Practice (Rules and Regulations)
~ 15.     DISHONORABLE OR UNETHICAL CONDUCT 24 Del. C. Sec.
1731lb)            (3)
      The phrase "dishonorable or unethical conduct likely to
      deceive, defraud, or harm the public" as used in 24
                                                           Del. C.
      ~ 1731(b) (3) shall include, but not be limited to, the
      following specific acts:


                 (i) PaYment of a fee by a physician to another
                 physician who has referred the patient to him,
                 unless the fee is in proportion to work actually
                 performed by the referring physician.
                 (k) Wilful failure to disclose to a patient that a

                 referring physician has the financial interest in an

Page 6€


          ancillary testing or treatment facility outside of the€
          physician I s    office.
DISTRICT OF COLUMBIA€
Health Occupations Revision Act Chapter 33 Subchapter V€
Licensing of Health Professionals ~ 2-3305. 14. Revocation.€
susoension. or denial of license or privileae: civil penalty:€
repr imand
  (a) Each board, subject to the right of a hearing as provided€
  by this subchapter, on an affirmative vote of a majority of its€
  members then serving, may take 1 or more of the disciplinary€
  actions provided in subsection (c) of this section against any€
  applicant, licensee, or person permitted by this subchapter to€
  practice the health occupation regulated by the board in the€
  District who:€



       (14) Pays or agrees to pay anything of value to , or€
       to split or divide fees for professional services€
       with, any person for bringing or referring a patient.€


FLORIDA€

Medical Practice Act€
FLA. STAT. ~    458. 327    Penalty for Violations€


 (2) Each of the following acts constitutes a misdemeanor of the€
 first degree, punishable as provided in s. 775. 082, s. 775. 083,€
 or s. 775. 084:€



 (c) Referring any patient, for health care goods or services,
 to any partnership, firm, corporation, or other business entity
 in which the physician of the physician I s employer has an
 equi ty interest of 10 percent or more unless, prior to such€
 referral, the physician notifies the patient of his financial€
 interest and of the patients right to obtain such goods or€
 services at the location of the patient I s choice. This section
 does not apply to the following types of equity      interest:€
       1. The ownership of registered securities issued by€
       a publicly held corporation or the ownership of€
       securi ties issued by a publicly held corporation,€
Page 7



          the shares of which are traded on a national

          exchange or the over-the-counter market;

          2. A physician I s own practice, whether he is a sole
          practi tioner or part of a group, when the health
          care good or service is prescribed or provided
          solely for the physician I s own patients and is
          provided or performed by the physician or under his
          supervision; or
       3. An interest in real property resulting in a

       landlord-tenant relationship between the physician

       and the entity in which the equity interest is



       value. €
       held, unless the rent is determined, in whole or in

       part, by the business volume or profitability of

       the tenant or is otherwise unrelated to fair market



FLA. STAT. ~    458. 331.   Grounds for discipl inary action: bv the

board and department

 (1) The following acts shall constitute grounds for which the

 disciplinary actions specified in subsection (2) may be taken:



      (i) Paying or receiving any commission, bonus, kickback,

      or rebate , or engaging in any split-fee arrangement in any

      form whatsoever with a physician, organization, agency, or

      person, either directly or indirectly, for patients

      referred to providers of health care goods and services

      including, but not limited to, hospitals, nursing homes,€
      clinical laboratories, ambulatory surgical centers, or

      pharmacies. The provisions of this paragraph shall not be

      construed to prevent a physician from receiving a fee for

      professional consultation services.€

       (0) Promoting or advertising on any prescription form of a

      communi ty pharmacy unless the form shall also state "This

      prescription may be filled at any pharmacy of your

      choice. "


      (gg) Referring any patient , for health care goods or
      services, to a partnership, firm, corporation, or other
      business entity in which the physician or the physician'
      employer has an equity interest or 10 percent or more
      unless, prior to such referral, the physician notifies the
      patient of his financial interest and of the patient I s
Page 8€


          right to obtain such goods or services at the location of€
          the patient I s choice.This section does not apply to the€
          following types of equity interest:€
               1. The ownership of registered securities€
               issued by a publicly held corporation or the€
               ownership of securities issued by a publicly€
               held corporation, the shares of which are€
               traded on a national exchange or the over-the-€
               counter market;€

               2. A physician I s own practice, whether he is a€
               sole practitioner or part of a group, when the
              health care good or service is prescribed or
              provided solely for the physician I s own
              patients and is provided or performed by the
              physician or under his supervision ;€
              3. An interest in real property resulting in a€
              landlord-tenant relationship between the€
              physician and the entity in which the equity€
              interest is held, unless the rent is€
              determined, in whole or in part, by the€
              business volume or profitability of the tenant€
              or is otherwise unrelated to fair market€
              value.

FLA. STAT. 9 455. 25.      Disclosure of financial interest by
practitioners
It shall be a misdemeanor of the first degree , punishable as
provided in s. 775. 082, s. 75. 083, or s. 775. 084, for any health
care practitioner licensed under chapter 458, chapter 459,
chapter 460, chapter 461, or chapter 466 to make any professional
referral for physical therapy services, as defined in s. 486. 021,
or to provide medicinal drugs from any source other than on a€
complimentary basis when the practitioner has a financial€
interest or for which the practitioner will receive some€
financial remuneration, unless in advance of any such referral€
the practitioner notifies the   patient, in writing, of such
financial interest.


Nursing Homes and Related Health Care      Facilities.
FLA. STAT. i 400.   17   Bribes. kickbacks. certain solicitations
prohibited.
(2) Whoever furnishes items or services directly or indirectly
to a nursing home resident and solicits, offers, or receives any:
Page 9




     (b) Return of part of an amount given in payment for referring
     any such individual to another person for the furnishing of
     such items or services; is guilty of a misdemeanor of the first
     degree, punishable as provided in s. 775. 082 or by fine not
     exceeding $5, 000, or both.

GEORGIA

Medical Practice Act
GA. CODE ANN. ~ 43-34-37. Authority to refuse license or
discipline ohysician: enforcement investiaations general

     (a) The board shall have the authority to refuse to grant a
     license to an applicant or to discipline a physician licensed
     under this chapter or any antecedent law upon a finding by the
     board that the licensee or applicant has:


                (9) . . . (DJ ivided fees or agreed to divide fees
                received for professional services with any person,
                firm, association, corporation, or other entity for
                bringing or referring a patient;


IDAHO

Medical Practice Act
IDAHO CODE ~ 54-1814          Grounds for medical discipline.

    Every person licensed to practice medicine or registered as an
    extern, intern, resident or physician I s assistance in this
    state is subject to discipline by the board pursuant to the
    procedures and powers set forth in section 54-1806A, Idaho
    Code, upon any of the following grounds:


    (8) Division of fees or gifts or agreement to split or divide
    fees or gifts received for professional services with any
    person, institution or corporation in exchange for a        referral.
 Page 10




 ILLINOIS
MEDICAL PRACTICE ACT OF 1987
 ILL. ANN. STAT. CH.   111. ~   4400-22.   Disciolinarv action -€
Grounds


 ~ 22 (14) Dividing with anyone other than physicians with whom

the licensee practices in a partnership, Professional Association

or Medical or Professional Corporation and fee, commission,
rebate or other form of compensation for any professional
services not actually and personally rendered. Nothing contained
in this subsection prohibits persons holding valid and current

licenses under this Act from practicing medicine in partnership

under a partnership agreement or in a corporation authorized by

"The Medical Corporation Act, " as now or hereafter amended, or as

an association authorized by "The Professional Association Act"

as now or hereafter amended, or under the "The Professional

Corporation Act" as now or hereafter amended, or from pooling,

sharing, dividing or apportioning the fees , and monies received by€
them or by the partnership, corporation or association in

accordance with the partnership agreement or the policies of the

Board of Directors of the corporation or association. Nothing
contained in this subsection prohibits 2 or more corporations
authorized by "The Medical Corporation Act, " as now or hereafter

amended, from forming a partnership or joint venture of such

corporations, and providing medical, surgical and scientific

research and knowledge by employees of these corporations if such

employees are licensed under this Act, or from pooling, sharing,
dividing, or apportioning the fees and monies received by the
partnership or j oint venture in accordance with the partnership
or j oint venture agreement. Nothing contained in this subsection
shall abrogate the right of 2 or more persons, holding valid and

current licenses under this Act, to each receive adequate

compensation for concurrently rendering professional services to

a patient and divide a fee~ provided, the patient has full

knowledge of the division, and, provided, that the division is

made in proportion to the services performed and responsibilities

assumed by each.
INDIANA

Medical Licensing Board of Indiana

Art. 5: Standards of Professional Conduct and Competent Practice

of Medicine


844 IAC 5-1-2 
 Standards of professional conduct

    Sec. 2 (j) A practitioner shall not pay, demand, or receive

    compensation, for referral of a patient, except for a patient

Page 11

  referral program operated by a medical society or association
  which is approved by the medical licensing board.

KANSAS

Medical Practice Act
KAN. STAT. ANN.
defined.
                  ~ 65-2837. Professional incompetencv.
unprofessional   conduct. false advertisement and advertisement




  (b) "Unprofessional conduct" means:



         (19) Directly or indirectly giving or receiving any fee,
         commission, rebate or other compensation for professional
         services not actually or personally rendered, other than
         through the legal functioning of lawful professional
         partnerships, corporations or associations.


KENTUCKY

KY. REV. STAT. ~ 205. 850 Prohibited activities - Exce9tion -
Commencement of oroceedinas for enforcement.


  (2) No person shall unlawfully make, offer or receive payment,
  rebate of a fee, or charge for referring an individual to
  another person for furnishing of benefits;
KY. REV. STAT. ~   205. 990   Penalties

 (7) Any person who violates subsections (1) to (6) of KRS
 205. 850 shall, in addition to any other penalties provided by
 law, forfeit and pay a civil penalty of payment to the cabinet
 in the amount of all benefits and paYments to which the person
 was not entitled.

  (8) Any provider who violates subsections (1) to (6) of KRS
  205. 850 shall, in addition to any other penalties provided by
  law, including the penalty set forth in subsection    (7) of this
  section, forfeit and pay civil penalties of:
         (a) Payment to the state treasuryl s general revenue fund
         in an amount equal to three (3) times the amount of such
Page 12



         benefits and paYments to which the person was not

         entitled; and

         (b) Payment of all reasonable expenses which the court
         determines have been necessarily incurred by the state in
         the enforcement of this section.

201 KY. ADMIN. REGS. 9. 015 Professional and ethical conduct.

Relates to: KRS 311. 530 to 311.620, 311-990
Pursuant to: KRS 13. 082



  section 19. Any fee charged by a physician shall be reasonable
  and shall compensate the physician for services actually
  rendered.
  Section 20.  Division of any professional fees not based on
  actual services rendered is a violation which will not be
  tolerated wi thin the membership of this association.
  Section 21. A physician shall not pay or receive compensation
  for referral of patients.


LOUISIANA

LA. REV. STAT. ~ 37. 1285. Causes for nonissuance: suspension:

revocation: or the imoosition of restrictions: fines:

reinstatement: oublication of action


  (A) The board may refuse to issue, or may suspend or revoke any

  license or permit, or impose probationary or other restrictions

  on any license or permit issued under this Part for the

  following causes:
  (19) Soliciting, accepting, or receiving anything of economic

  value in return for and based on the referral of patients to

  another person, firm, or corporation or in return for the

  prescription of medications or medical devices;


MAINE

The Board accepts the ethical standards adopted, and interpreted
from time to time, by the AMA. The Board has previously
considered a breach of those standards as unprofessional conduct,
a basis for discipline set forth in ME. REV. STAT. ANN.
~ 3282-A(2) (F) .
                                                         tit.32,
Page 13




MARYLAND

Annotated Code of Maryland, Art. 27 , Sec. 230B

   (b) "Medicaid Fraud" means:


       (5) Furnishing to a person items or services for which

       payment of any part is or maybe made from federal or State

       funds under a state medical assistance program; and

       soliciting, offering, or receiving any (i) kickback or

       bride in connection with the furnishing of those items or

       services, or the making or receipt of any paYment; or (ii)
       rebate of any fee or charge for referring a pers9n to

       another person for the furnishing of those items or

       services;
MASSACHUSETTS

MASS. GEN. LAWS ANN. Ch. 118E, ~ 21B.  Bribes or Kickbacks for
Ordering or Recommendina Medicaid-Paid Services: Penalties
  Whoever solicits or receives any remuneration, including any

  bribe or rebate, directly or indirectly, overtly or covertly,

  in cash or in kind in return for purchasing, leasing, ordering

  or arranging for or recommending purchasing, leasing or

  ordering any good, facility, service or item for which payment

  may be made in whole or in part under this chapter, or whoever

  offers or pays any remuneration including any bribe or rebate

  directly or indirectly, overtly or covertly, in cash or in kind

  to induce such person to purchase, lease, order, or arrange

  for or recommend purchasing, leasing, or ordering any good,
  facility, service or item for which payment may be made in

  whole or in part under this chapter shall be punished by a fine

  of not more than ten thousand dollars, or by imprisonment in

  the state prison for not more than 'five years or in a jail

  house of correction for not more than two and one-half years,
  or by both such fine and imprisonment.
  This section shall not apply to a discount or other

  reduction in price obtained by a provider of services or

  other entity under this chapter if the reduction in price is

  properly disclosed and appropriately reflected in the costs

  claimed ' or charges made by the provider or entity under this
  chapter or to any amount paid by an employer to an employee

  who has a bona fide emploYment relationship with such

  employer, for employment in the provision of covered items or

  services.
MASS. GEN. LAWS ANN. Ch. 112, ~ 1, Section 12AA   Dutv of
referrina physician to disclose financial interest in physical
theraov corooration
 Page 14




   A physician who refers a patient for physical therapy services

   to any partnership, corporation, firm or other legal entity in

   which the physician has a financial ownership interest shall

   disclose such interest to the patient and shall inform the

   patient that such services may be available from other physical
   therapists in the patient I s community.

  For the purposes of this section, the term " ownership
  interest" shall mean any and all ownership interest including,
  but not limited to, any membership, proprietary interest , stock

  interest, partnership interest, co-ownership in any form or any

  profit-sharing arrangement.


  The board of registration in medicine may prescribe by
  regulation that physicians report such ownership interest and
  referrals to the said board.  Violation of this section may
  constitute grounds for disciplinary action by the board of
  registration in medicine.
  MASS. GEN. LAWS ANN. Ch. 440, ~/ 2,  Section 23P~   Disclosure of
  Referrina Phvsician I s Ownership Interest in Phvsical Therapy
  Practice Any physical therapist who is involved in the
  private' practice of physical therapy, to whom a patient is

  referred by a phys ician who derives income directly' or

  indirectly from the physical therapy service, shall disclose to

  the patient that the referring physician derives income from

  the provision of such service.
  For the purposes of this section, the term " ownership
  interest" shall mean any and all ownership interest including,
  but not limited to, any membership, proprietary interest, stock

  interest, partnership interest, co-ownership in any form or any

  profit-sharing arrangement.

  The board of allied health professionals may prescribe by
  regulation that physical therapists report such ownership
  interest and referrals to the said board.  Violation of this
  section may constitute grounds for disciplinary action by the
  board of allied health professionals.


MICHIGAN

Public Health Code

MICH. COMPo LAWS ANN. ~ 333. 16221   Investiaation of licensee:
arounds

  (d) Unethical business practices ,   consisting of any or the
  following:
Page 15




               (ii) Dividing fees for referral of patients or accepting
               kickbacks on medical or surgical services, appliances, or
               medications purchased by or in behalf of patients.


    (e) Unprofessional conduct, consisting of any of the
   following:

               (iii) Promotion for personal gain of an unnecessary drug,
               device, treatment, procedure, or service from another
               person, place, facility, or service from another person,
               place, facility, or business in which the licensee has a
               financial interest.
               ( i v) Directing or requiring an individual to purchase or
               secure a drug, device, treatment, procedure or service
               from another person, place, facility, or business in which
              the licensee has a financial interest.
MEDICAID FALSE CLAIM ACT
MICH. STAT. ANN. ~ 16. 614 (4) Kickbacks or bribes in connection
wi th furnishina of aoods or services: rebates of fees or charaes
for referrals: felonv. penal            tv.
  Sec. 4. A person who solicits, offers , or receives a kickback
  or bribe in connection with the furnishing of goods or services
  for which paYment is or may be made in whole or in part
  pursuant to a program establ ished under Act No. 2 8 0 of the
  Public Acts of 1939, as amended, who makes or receives the
  payment, or who receives a rebate of a fee or charge for
  referring an individual to another person for the furnishing of
  the goods and services is quil ty of a felony, punishable by
  imprisonment for not more than 4 years or by a fine of not more
  than $30, 000 or both. (MCL ~ 400. 604.


MINNESOTA

PHYSICIANS AND SURGEONS. OSTEOPATHS

MINN. STAT. ANN. ~        147.   091.   Grounds for Disciplinarv Action.


  Subdivision 1. Grounds Listed . The board may refuse to grant a
  license or may impose disciplinary action as described in
 Page €




          section 147. 141 against any physician. The following conduct

          is prohibited and is grounds for disciplinary action:€


               (p) Fee splitting, including without limitation:


                     (1) paying, offering to pay, receiving, or agreeing
                     to receive , a commission, rebate, or remuneration,
                     directly or indirectly, primarily for the referral of
                     patients or the prescription of drugs or devices;

                     (2) dividing fees with another physician or a

                     professional corporation, unless the division is in

                     proportion to the services provided and the

                     responsibili ty assumed by each professional and the

                     physician has disclosed the terms of the division;

                     (3) referring   a patient to any health care provider

                     as defined in   section 144. 335 in which the referring

                     physician has   a significant financial interest unless

                     the physician   has disclosed the physician I s own
                     financial interest; and
                     (4) dispensing for profit any drug or device , unless
                     the physician has disclosed the physician I s own
                     profit interest.
              The physician must make the uisclosures required in this

              clause in advance and in writing to the patient and must

              include in the disclosure a statement that the patient is

              free to choose a different health care provider. This€
              clause does not apply to the distribution of revenues from
              a partnership, group practice, non- profit corporation, or
              professional corporation to its partners, shareholders,
              members, or employees if the revenues consist only of fees
              for services performed by the physician or under a
              physician or under a physician I s direct supervision, or to
              the division or distribution of prepaid or capitated
              heal th care premiums , or fee-for-service withhold amounts

              paid under contracts established under other state law.€


Administrative Rules; Adopted Permanent Rules Related to the

Medical Assistance PaYment, Department of Health and Human

Services€
Part 9505.. 0221 €     PAYMENT LIMITATION: PARTIES AFFILIATED WITH A

PROVIDER.€

   Equipment, supplies , or services prescribed or ordered by a

Page 17


  physician are not eligible for medical assistance payment if
  they are provided:
       A. by a person or entity that provides direct or indirect
  payment to the physician for the order or prescription for the
  equipment, supplies, or services; or
       B. upon or as a result of direct referral by the
       physician to an affiliate of the physician unless the
       affiliate is the only provider of the equipment,
       supplies, or services in the local trade area.
Part 9505.   03 65   PROSTHETI C AND ORTHOTI C DEVI CES .
  Subp. 6. Excluded prosthetic and orthotic devices. The
  prosthetic and orthotic devices in items A to K are not
  eligible for medical assistance payment:



       I. a device that is supplied to the recipient by a
       physician who prescribed the device or by the consultant
       to the physician in subpart 3 or
       J. a device that is supplied to the recipient by a
       provider who is an affiliate of the physician who
       prescribes the device for the recipient or of the
       consul tant to the physician as in subpart 3 or      4.
                                                           For
       purposes of this item, " affiliate" means a person that
       directly, or indirectly through one or more
       intermediaries, controls, or is controlled by, or is
       under common control with the referring physician


MISSOURI
MO. REV. STAT. ~ 334. 100. Denial. revocation or suspension of
license. qrounds for - reinstatement provisions.



  (19) Any candidate for licensure or person licensed to
 practice, as physical therapist, paying or offering to pay a
 referral fee or practicing or offering to practice
 professional physical therapy independent of the prescription
 and direction of a person licensed and registered as a
 physician and surgeon under this chapter, as a dentist under
 chapter 332, RSMO, or as a podiatrist under chapter 330, RSMo
 whose license is in good standing;
Page 18€


  (21) Any person licensed to practice as a physician or€
  surgeon, requiring, as a condition of the physician- patient€
  relationship, that the patient receive prescribed drugs€
  devices or other professional services directly from facilities€
  of that physician' s office or other entities under that€
  physician I s ownership or control. A physician shall provide
  the patient with a prescription which may be taken to the
  facili ty selected by the patient;


    Mo. Chapter 198. 145 (1986). Kickbacks. bribes and rebates
prohibited. when. - A person shall not purposely solicit or
receive any payment, including, without limitation, any kickback,
bribe, or rebate, directly or indirectly, overtly or covertly, in
cash or in kind, from any vendor or health care provider:
  (1) In return for referring an individual to a person for the€
  furnishing or arranging for the furnishing of any item or€
  service for which payment may be made in whole or in part under€
  Medicaid; or€
  (2) In return for purchasing, leasing, ordering or arranging
  for or recommending purchasing, leasing or ordering any good
  facili ty,service or item for which payment may be made in
  whole or in part under Medicaid.


NEBRASKA€

NEB. REV. STAT. ~ 71-147. License or certificate to practice a€
profession: denied. revoked or other disciolinarv actions:€
causes -€
A license or certificate to practice a profession may be denied,€
refused renewal, limited, revoked, suspended or have other€
disciplinary measures taken against it in accordance with section€
71-155 when the applicant, licensee, or certificate holder is€
guil ty of any of the following acts or offenses    . (10)€
unprofessional conduct, which term includes all acts specified in€
section 71-148....
NEB. REV. STAT.   ~ 71-148.   License or certificate: revocation or€
suspens ion: unorofess ional conduct.   defined.€
  For the purpose of section 71-147 , unprofessional conduct€
  shall include any of the following     acts:
                                            (1) Solicitation of€
  professional patronage by agents or person, popularly known as
  capers or steerers, or profiting by the acts of those
  representing themselves to be agents' of the licensee or
  certificate holders;... (3) division of fees , or agreeing to
Page 19


  split or divide the fees , received for professional services
  wi th any person for bringing or referring a patient....


NEVADA

NEV. REV. STAT. ~ 630. 305. Grounds for initiatina disciolinary
action or denvina licensure
The following acts, among others, constitute grounds for.
ini tiating disciplinary action or denying licensure:
  1. Directly   or indirectly receiving from any person,
  corporation   or other business organization any fee,
  commission,   rebate or other form of compensation which is
  intended or   tends to influence the physician I s objective
  evaluation or treatment of a patient.
  2. Dividing a fee between licensees except where the patient is
  informed of the division of fees and the division of fees is
  made in proportion to the services personally performed and the
  responsibility assumed by each licensee.


  6. Failing to disclose to a patient any financial or other
  conflict of interest.
NEW JERSEY
BOARD OF MEDICAL EXAMINERS REGULATIONS; SUBCHAPTER
RULES OF PRACTICE ~ 13: 35-6.
                                                     6.GENERAL
                               Prohibition of kickbacks. rebates
or receivina paYment for services not rendered

  (a) It shall be unprofessional or unethical conduct for any
  licensee or registrant of the state Board of Medical Examiners
  to:
         1. Receive directly or indirectly from any person firm or
         corporation any fee, commission, rebate, gift or other
         form of compensation for prescribing, ordering or
         promoting the sale of a device, appliance or prescribed
         item or service when such device, appliance or prescribed
         item or service is provided by another;

         2. Directly or indirectly charge or bill the recipient of
         a device, appliance or prescribed item, directly or
         indirectly charge or bill any third party when such
         device , appliance or prescribed item is delivered by the
         licensee or registrant without disclosing to the recipient
         and third party, i~ any, the actual cost to the licensee
         or registrant for such device , appliance or prescribed
Page 20


          item which the licensee or registrant paid or shall. pay
          the provider of such device; appliance or prescribed item;
          3. Receive directly or indirectly from any person, firm or
          corporation any fee, gift commission, rebate, free
          saleable products, anything of value or any form of
          compensation for prescribing or promoting the sale of any
          drug, commodity or product;


       5. Render any bill or invoice or receive any monies from
       any person, firm, corporation or governmental entity for
       the performance of services which were    not, in fact,
       performed; provided, however, that this shall not be
       construed to prohibit an agreed charge for appointment
       made or services ordered notwithstanding subsequent
       patient or consumer cancelation.
~ 10:49-6.    Administrative charaes/service fees
 (a) A provider shall not pay nor require payment of an
 administrative charge or service fee for the privilege of
 doing business with another provider or for service for which
 reimbursement is included as part of the Medicaid fee.


       1. An example of a prohibited activity is that a LTCF may
       not require a pharmacy to pay an administrative charge or
       service fee to the facility for handling of the LTCF
       resident' s medications , drugs and/or related
       pharmaceutical records.€
 J. STAT. ANN.        ~ 30:4D-17.   Penal tv




 (c) Any provider, or any person, firm, partnership,
 corporation or entity who solicits, offers, or receives any
 kickback, rebate or bribe in connection with:

      (1) The furnishing of items or services for which paYment
       is ' :or may
                  be made in whole or in part under this act; or
      (2) The furnishing of items or services whose cost is or
      may be reported in whole or in part in order to obtain
      benef its or paYments under this act; or
      (3) The receipt of any benefit or payment under this act,
      is guilty of a high misdemeanor and , upon conviction
      thereof, shall be liable to a penalty of not more than
      $10, 000. 00 or. to imprisonment for not more than 3 years or
      both.€
                                                   ...


Page 21


This subsection shall not apply to (A) a discount or other

reduction in price under this act if the reduction in price is

properly disclosed and appropriately reflected in the costs

claimed or charges made under this act; and (B) any amount paid

by an employer to an employee who has a bona fide employment

relationship with such employer for employment in the provision

of covered items or services.

NEW MEXICO

N . M.STAT. ANN. ~ 61-6-14.   License may be refused. revoked or
susoended: orocedure: practice after suspension or revocation:
penal tv: notice of claim . (Effective until July 1, 1992)

  A.  The board shall
  suspend any license
                      refuse to license and shall revoke or
                      which has been issued by the board or any
  previous board upon satisfactory proof being made to the board
  that the applicant for or holder of the license has been guilty
  of unprofessional or dishonorable conduct.
  B. "Unprofessional or dishonorable conduct, " as used in this

  section, means among other things but not limited to because of

  enumera tion 




         (16) fee splitting;




  C. As used in this section, "fee splitting" includes offering,
  delivering, receiving or accepting any unearned rebate,
  refunds, commission preference, patronage dividend, discount or
  other unearned consideration, whether in the form of money or
  otherwise, as compensation or inducement of referring patients,
  cl ients or customers to any person irrespective of any
  membership, proprietary interest or co-ownership in or with any
  person to whom the patients, clients or customers are referred.

NEW YORK

RELATIONSH~P BETWEEN CLINICAL LABORATORIES AND PURVEYORS OF

HEALTH SERVICES
N. Y. GEN. BUS. LAW   ~ 801.   Prohibited Practices.
  1. No health services purveyor or his agent , employee or
  fiduciary shall solicit, receive , accept or agree to receive or
  accept any payment or other consideration in any form to the
  extent such payment or other consideration is given for the
  referral of services or participate in the division,
Page 22



 transference ,assignment, rebate, splitting of fees , with any

 clinical laboratory or its agent, employee or fiduciary, or

 with another health services purveyor. Specifically prohibjted
 practices shall include, without limiting thereto, the

  following:€
       (a) Acceptance of rental payments for storage space for€
       any supplies provided by any clinical laboratory or its

       agent, employee or fiduciary or for filling in proper

       information on laboratory request forms for     tests.€

        (d) Receipt or acceptance of any monies or other

        consideration from any clinical laboratory or its agent,€
        employee or fiduciary as a bonus, commission or fee in the

        form of a fixed or percentage return for the amount of

        laboratory tests performed or to be performed by any

        clinical laboratory tests performed or to be performed by

        any clinical laboratory to which patients or specimens are

      , referred or in any other form, including from funds of

        governmental agencies paid directly to the clinical

       laboratory .€

 2.  No clinical laboratory or its agent, employee or fiduciary

 shall make, offer, give, or agree to make, offer, or give any

 payment or other consideration in any form to , the extent such

 payment or other consideration is given for the referral of

 services or participate in the division, transference,

 assignment, rebate, splitting of fees, with any health services

 purveyor or its agent, employee or fiduciary, or with another

 clinical laboratory.


 Specifically prohibited practices shall include, without

 limiting thereto , the following:


       (a) To offer or agree to give or give rental payments for

       storage space for any supplies provided to any hea~th

       services purveyor or his agent, employee or fiduciary, or

       for filling in proper information on laboratory request

       forms for tests.


       (b) ' To supply technical employees or other agents,
       employees or fiduciaries ' of
                                   a clinical laboratory to

       perform any duties in the facility of any health

       services purveyor or his agent, employee or fiduciary

       provided, however, that nothing in this subdivision shall

       prohibi t a   health services purveyor and a cl inical
       laboratory from contracting for laboratory management

       services, including the provision of technical services

       and employees in the facility of the health services

Page 23


          purveyor for the performance of functions directly related
          to clinical laboratory operations.


          (d) To offer or agree to give or give any monies or other
          consideration to any health services purveyor or his
          agent, employee or fiduciary as a bonus, commission or fee
          in the form of a fixed or percentage return for the amount
          of laboratory referrals of patients or specimens of
          patients, including patients in any governmental medical
          assistance program in which partial or full reimbursement
          is due the patient or in which payment is made directly to
          any clinical laboratory.


RULES OF THE BOARD OF REGENTS ON UNPROFESSIONAL CONDUCT Section
29. 1 GENERAL PROVISIONS FOR ALL PROFESSIONS
29. 1 (b) Unprofessional conduct in the practice of any profession
licensed or certified pursuant to title VIII of the Education law
shall include:



  (3) direct or indirectly offering, giving, soliciting, or
  receiving or agreeing to receive, any fee or other
  consideration to or from a third party for the referral of a
  patient or client or in connection with the performance of
  professional services;

OHIO

OHIO REV. CODE ANN. i 4731. 21   Grounds for Discipline


  (B) The board, pursuant to an adjudicatory hearing under
  Chapter 119. of the Revised Code and by a vote of not less
  than six members, shall, to the extent permitted by law,
  limit, revoke, or suspend a certificate, refuse to register or
  refuse to reinstate an applicant, or reprimand or place on

  following reasons:
  probation the holder of a certificate for one or more of the



       (17) Any division of fees or charges, or any agreement or
       arrangement to share fees or charges, made by any person
       licensed to practice medicine and surgery, osteopathic
       medicine and surgery, or podiatric medicine and surgery
Page 24



        with any other person so licensed, or with any other

        person;

PENNSYLVANIA

35 PA. CONS. STAT. ~ 449.
Disclosure of interest in
                             22  (1988-66-Public Law 403 , Section 2).
                              referral facilities.
  (a) General rule. -- Any practitioner of the healing arts

  shall, prior to referral of a patient to any facility or

  entity engaged in providing health-related services, tests

  pharmaceutical, appliances or devices, disclose to the patient

  any financial interest of the practitioner or ownership by the

  practitioner in the facility or entity. In making any



  or entity.
  referral, the practitioner of the healing arts may render any

  recommendations he considers appropriate, but shall advise the

  patient of his freedom of choice in the selection of a facility




   000.
  (b) Penalty. -- A person who violates this section shall be

  liable to the Commonwealth for a civil penalty not to exceed

  $1,
  (c) Enforcement. - The Licensing Boards in the bureau shall

  enforce this section.

PA. STAT. ANN.    ~ 1407.   Provider prohibited acts.   Criminal
penal ties and civil remedies


  (a) It shall be unlawful for any person to:




  2. Solicit or receive or to offer or pay any remuneration,
  including any kickback, bribe or rebate, directly or
  indirectly, in cash or in kind from or to any person in

  connection with the furnishing of services or merchandise for

  which paYment may be in whole or in part under the medical

  assistance program or in connection with referring an

  individual to a person for the furnishing or arranging for the

  f~rnishing of any services or merchandise for which payment may

  be made in whole or in part under the medical assistance

  program:

RHODE ISLAND

  I. GEN. LAWS i 5-37-5. 1. Unprofessional conduct. The term
 unprofessional conduct" as used in this chapter shall include
but not be limited to the following items or any combination
thereof and may be further defined by regulations established by
the board with the prior approval of the director:
Page 25€




  (6) Promotion by a physician or limited registrant of the sale€
  of drugs, devices, appliances, or goods or services provided€
  for a patient in such a manner as to exploit the patient for€
  the financial gain of the physician or limited registrant;€


  (12) Division of fees or agreeing to split or divide the fees€
  received for professional services for any person for bringing€
  to or referring a patient;€
  (13) Agreeing with clinical or bioanalytical laboratories to€
  accept payments form such laboratories for individuals tests or€
  test series for patients.€

  I. GEN. LAWS ~ 5-37-21. Fee Splittina.    No physician shall
directly or indirectly receive payment, reimbursement,
compensation or fee for a referral to any clinical laboratory.
violation of the provisions of this section shall constitute a€
misdemeanor and upon conviction thereof may be punished by€
imprisonment for not longer than one (1) year or a fine of not€
more than five hundred dollars ($500) or by both such fine and€
imprisonment.

SOUTH CAROLINA€

  C. CODE ANN.    ~ 81-60 rprincioles of Medical Ethicsl€



  G. In the practice of medicine a physician should limit the
  source of his professional income to medical services actually
  rendered by him, or under his supervision, to his patients.
  His fee should be commensurate with the services rendered and
  the patient'   s ability to pay.
                                 He should neither pay nor
  receive a commission for referral of      patients.
                                                  Drugs, remedies
  or appliances may be dispensed or supplied by the physician
  provided it is in the best interests of the patient.

SOUTH DAKOTA€

  D. CODIFIED LAWS ANN.    ~ 36-4-30   Acts considered unprofessional€
conduct.
The phrase " unprofessional or dishonorable conduct" as used in
this chapter shall be construed to      include:
                                                 ....


Page 26




     (10) ' Splitting fees or giving to any person furnishing a

     patient any portion of the fees received from such patient c-

     paying or giving to any person any consideration whatsoever for

     furnishing any patient;



S. D. CODIFIED LAWS ANN. i 22-45-4. Action of person aidinq
provider with aoods or services or referrina individuals to
provider for which additional value received an offense --
violation a felony.   A person commits an offense if he:


     (3) Refers an individual to a provider for the provision of a
     good or a service for which payment may be made, in whole or in
     part, ' under the program, and solicits or accepts anything of
     value in connection with such referral.



TENNESSEE

GENERAL RULES AND REGULATIONS GOVERNING THE PRACTICE OF MEDICINE

AND SURGERY

TENN. CODE ANN. ~ 63-6-214 Grounds for license denial. susoension

or revocation -- Reoortinq misconduct. --    The grounds upon

which the board shall exercise such power includes, but is not

limited to, the following:




    (16) Giving or receiving, or aiding or abetting the giving or
    receiving of rebates , either directly      or indirectly;...
TEXAS

TEX. STAT. ANN. art. 4495b    ~ 3.   07   Unlawful and prohibited
practices: penal   ties.

    (c) A physician or surgeon may not employ or agree to employ,
    pay or promise to pay, or reward or promise to reward any
    person, firm, association of persons , partnership or

    corporation for securing, soliciting, or drumming patients or

    patronage. A physician or surgeon may not accept or agree to

    accept any payment, fee, reward, or anything of value for

    securing, soliciting, or drumming for patients or patronage for

    any physician or  surgeon. Whoever violates any provision of
Page 27


  this section commits a Class A misdemeanor. Each payment,
  reward, or fee or agreement to pay or accept a reward or fee is
  a separate offense. ...
VERMONT

PROFESSIONS AND OCCUPATIONS
VT. STAT. ANN. tit. 26, ~ 1354. Unorofessional Conduct. The term
 unprofessional conduct" as used in this chapter shall mean the
following items or any one of combination thereof:



  (6) promotion by a physician of the sale of drugs, devices,
  appliances or goods provided for a patient in such a manner as
  to exploit the patient for financial gain of the physician or
  selling, prescribing, giving away or administering drugs for
  other than legal and legitimate therapeutic purposes;


  (12) division of fees or agreeing to split or divide the fees
  received for professional services for any person for bringing
  to or referring a patient;

VT. STAT. ANN. tit. 18, i 1852   Patients I   bill of riahts:
Adoption


  (9) The patient has the right to know the identity and
  professional status of individuals providing service to him or
  her, and to know which physician or other practitioner is
  primarily responsible for his or her  care.   This includes the
  patient I s right to know of the existence of any professional
  relationship among individuals who are treating him or her, as
  well as the relationship to any other health care or
  educational institutions involved in his or her care.

VIRGINIA
Virginia Medicine and Other Healing Arts
VA. CODE i 54-278. Division of fees between phvsicians and
suraeons prohibited . -- No surgeon or physician shall directly or
indirectly share any fee charged for a surgical operation or
medical services with a physician who brings, sends or recommends
a patient to such surgeon for operation or such physician for
such medical services; and no physician who brings, sends or
recommends any patient to a surgeon for a surgical operation or
medical services shall accept from such surgeon or physician any
  Page €




  portion of a fee charged for such
  that nothing in this chapter shall operation; provided,
                                      be construed        however

                                                   as prohibiting

  the members of any regularly organized partnership of such

 surgeons or physicians from making any division of their total

 frees among themselves as they may determine or a group of duly

 licensed practitioners of any branch or branches of the healing

 arts from using their joint fees to defray their joint operating

 costs. Any person violating the provisions of this section shall

 be guilty of a misdemeanor.

 VA. CODE ~ 54-278. 3.       Disclosure of interest in referral

 facilities.€
 Any practitioner of the healing arts
                                        shall,inprior
 a patient to any facility or entity engaged      the ,to referral of
 health- related services , appliances or devices       provision of
 limited to physical therapy, hearing             , including but not

                                            testing, or sale or fitting€
 of hearing aids or eyeglasses, disclose to the patient any

 financial interest of or ownership by the practitioner in such

facility or entity.    In making any such referral
practi tioner of the healing  arts may render such ,recommendations
                                                      the
as he considers appropriate, but shall advise the patient of his
freedom of choice in the selection of such facility or
Nothing in this section shall be construed to permit anyentity.
                                                             of the
practices prohibited in subdivision
person violating the provisions of this(12)section
                                            of Sec.shall
                                                     54-317.
                                                         be quil€
                                                              Any
of a Class 3 misdemeanor.


VA. CODE     ~ 54-317.   What constitutes unprofessional conduct

 A. Any practitioner of medicine
                                 , osteopathy,
 podiatry, physical therapy or clinical        chiropractic

                                         psychology or any

 physical therapist assistant shall be considered guilty of

 unprofessional conduct if he:€


           (7) Violates any of the provisions of j 54-278 or

           practices any branch of the healing arts in

           violation of the provisions of this chapter; or



D. A practitioner of the healing arts shall not engage in

selling or promoting the sale of eyeglasses from wi 

                                                     thinwithin

office unless a dispenser of such items is not located     his

fifteen miles of the practitioner'
                                    s office. However , a

practi tioner may own, in whole or in
dispensary located adjacent to or at a part, an optical

                                         distance from his

office    and may dispense contact lenses to his patients from

within ' his       office.
                      Further, practitioners shall not employ
unlicensed persons to fill prescriptions for
                                                    eyeglasses.
 Page 29



   E. Any practitioner of the healing arts engaging in the

   examination of eyes and prescribing of eyeglasses shall give

   the patient a copy of any prescription for eyeglasses and

   inform the patient of his right to have the prescription filled

   at the establishment of his choice. No practitioner who owns

   in whole or in part, an establishment dispensing eyeglasses

   shall make any statement' or take any action, directly or

   indirectly, that infringes on the patient' s right to have a

   prescription filled at an establishment other than the one in

   which the practitioner has an ownership interest. In addition

   no practitioner shall offer any inducement, take any action or

   make any statement to encourage the patient to have a

   prescription filled at the establishment in which the
   practi tioner has an ownership interest unless such inducement
   action or statement is offered on the same terms to the general

   public.
   Disclosure of ownership interest by a practitioner as required
   by ~ 54-278. 3 or participation by the practitioner in
   contractual arrangements with third- party payors or purchasers
   of vision care services shall not constitute a violation of

   this subsection.


 WASHINGTON

, WASH. REV. CODE ~ 19. 68.               010       Rebatina orohibited -- Penalty
 It. shallbe unlawful for any person, firm, corporation or
association, whether organized as a cooperative, or for profit or
nonprofi t, to pay, or offer to pay or allow, directly or

indirectly, to any person licensed by the state of Washington to

engage in the practice of medicine and surgery, drugless

treatment in any form, dentistry, or pharmacy, and it shall be

unlawful for such person to request, receive or allow, directly

or indirectly, a rebate, refund, commission, unearned discount or
profi t by means of a credit or other valuable consideration in
connection with the referral of patients to any per~on, firm,
corporation or association, or in connection with the furnishings

of medical, surgical, or dental care, diagnosis , treatment or

service, on the sale , rental, furnishing or supplying of clinical

laboratory supplies or services of any kind, drugs, medication,

or medical supplies, or any other goods, services or supplies

prescribed' : for   medical diagnosis, care or treatment:                    Provided
that ownership of a financial interest in any firm, corporation
or assocIation which furnishes any kind of clinical laboratory or
other services prescribed for medical, surgical, or dental
diagnosis shall not be prohibited under this section where the

referring practitioner affirmatively discloses to the patient in

writing, the fact that such practitioner has a financial interest

in such firm, corporation, or association.

Page 30€

Any person violating the provisions of this section is guilty of€
a misdemeanor.€

WASH. REV. CODE ~ 19. 68. 020            Deemed unorofessional conduct
The acceptance directly or indirectly by any person so licensed
of any rebate, refund, commission, unearned discount, or profit
by means of a credit or other valuable consideration whether in
the form of money or otherwise, as compensation for referring
patients to any person, firm, corporation or association as set
forth in RCW 19. 68. 030 constitutes unprofessional conduct.

WASH. REV. CODE ~ 18. 130. 180.             Unprofessional conduct
The following conduct, acts, or conditions constitute
unprofessional conduct for any license holder or applicant under
the jurisdiction of this chapter:


  (21) Violation of chapter 19. 68 RCW;€


WEST VIRGINIA€
  VA. CODE            ~ 9-7-5.   Bribery: false claims: consoiracv: criminal€
oenal ties.€

  (a) A person shall not solicit, offer or receive any€
  remuneration, including any kickback , rebate or bribe,€
  directly or indirectly, wi th the intent of causing an€
  expendi ture of moneys from the medical services fund€
  established pursuant to section two (~ 9-4-2), article four of€
  this chapter which expenditure is not authorized by applicable€
  laws or rules and regulations governing said medical services€
  fund.


  (d) Any person found to be in violation of subsection (a), (b)
  or (c)  of this section shall be guilty of a felony and, upon
  conviction, shall be confined in the penitentiary not less than
  one nor more than ten years or shall be fined not to exceed ten
  thousand: dollars, or both fined and imprisoned as
  provided. (1981, c. 216)



West Virginia Medical Practice Act€
W. VA.               Professional Discipline of phvsicians and€
         CODE ~ 30-3-14

podiatrists       (c) The board may deny an application for€
license or other authorization to practice medicine and surgery€
  Page 31


  or podiatry in this state and may discipline a physician or
  podiatrist licensed or otherwise lawfully practicing in this
  state who, after a hearing, has been adjudged by the board a~
  unqualified due to any of the following
                                            reasons:

    (6) Requesting, receiving or paying directly or indirectly a
   payment, rebate , refund commission, credit or other form of
   profit or valuable consideration for the referral of patients
   to any person or entity in connection with providing medical or
   other health care services or clinical laboratory services
   supplies of any kind, drugs
                               , medication or any other medical
   goods , services or devices used in connection with medical or
   other health care services.
   (7) Unprofessional conduct by any physician or podiatrist in
  referring a patient to any clinical laboratory or pharmacy in
  which the physician or podiatrist has a proprietary interest
  unless such physician or podiatrist discloses in writing such
   interest to the patient.  Such written disclosure shall
  indicate that the patient may choose any clinical laboratory
  for pUrposes of having any laboratory work or assignment
  performed or any pharmacy for pUrposes of purchasing any
  prescribed drug or any other medical goods or devices used in
  connection with medical or other health care
                                                   services.

Sec. 19. Causes for Denial. Probation. Suspension or Revocation
of Licenses and Permits
Sec. 19.
permit ,
           1.  The Board may deny an application for a license or
           place a licensee or permit holder on probation
license or permit , limit or restrict a license or permit
                                                       , suspend a
revoke any license or permit heretofore or hereafter issued
                                                          , orby
the Board, upon satisfactory proof that the licensee or permit
holder has:



 r.   Paid or received any commission
 rebate , or engaged in any split-fee ,arrangement
                                          bonus , kickback
                                                      in anyorform
 whatsoever with a physician, organization
 ei ther directly or indirectly, for patients , agency or person,
                                                  referred to
 providers of health care goods and services
 limited to , hospitals , nursing homes          , including, but not
 ambulatory surgical centers or         ,  clinical  laboratories,
                                  pharmacies.    The
 this paragraph shall not be construed to prevent provisions
                                                       a physicianof
 from receiving a fee for professional consultation
                                                        services;
Page 32




  w. Exercised influence on the patient or client in such a
  manner as to exploit the patient or client for financial ga~ n
  of the licensee or of a third party, which shall include, but
  not be limited to, the promoting or selling of services, goods,
  appliances or drugs, and the promoting or advertising on any
  prescription form of a community pharmacy. For the purposes of
  this paragraph, it shall be legally presumed that prescribing,
  dispensing, administering, mixing or otherwise preparing legend
  drugs, including all controlled substances, inappropriately or
  in excessive or inappropriate quantities, is not in the best
  interests of the patient and is not in the course of the
  physician' s professional practice, without regard to his
  intent;€
  gg. Knowingly maintained a professional connection or

  association with any person who is in violation of the Medical

  Practice Act or the rules or regulations of the Board; or

  knowingly aided, assisted, procured, or advised any person to

  practice medicine contrary to the Medical Practice Act or to

  the rules and regulations of the Board; or knowingly performed

  any act which in any way aids, assists, procures, advises or

  encourages any unlicensed person or entity to practice

  medicine; or divided fees or agreed to divide fees received for

  professional services with any person, firm, association,

  corporation or other entity for bringing or referring a

  patient; or engaged in the practice of medicine as an officer

  or employee of any corporation other than one organized and

  existing pursuant to the Medical. Practice Act, except as a

  licensed physician, intern or resident of a hospital or

  teaching institution licensed by this   state.€
WISCONSIN€
WIS. STAT. ANN. i 49. 49.   Medical assistance offenses


  (2) Kickbacks, Bribes and Rebates.


  (a)  Solicitation or receiot of remuneration   Any person who

  solicits or receives any remuneration, including any kickback,€
  bribe, or rebate, directly or indirectly, overtly or covertly,€
  in cash or in kind, in return for referring an individual to a

  person ~or the furnishing or arranging for the furnishing of

  any item or service for which payment may be made in whole or

  in part under a medical assistance program, or in return for

  purchasing, leasing, ordering, or arranging for or recommending

  purchasing, leasing, or ordering any good, facility, service,€
  or item for which payment may be made in whole or in part under

  a medical assistance program, may be fined not more than

  $25, 000 or imprisoned for not more than 5 years.€
Page 33


  (b) Offer or oavrnent of remuneration  Whoever offers or pays
  any remuneration including any kickback, bribe, or rebate
  directly or indirectly, overtly or covertly, in cash or in ~ind
  to any person to induce such person to refer an individual to a
  person for the furnishing or arranging for the furnishing of
  any item or service for which paYment may be made in whole or
  in part under a medical assistance program, or to purchase,
  lease, order, or arrange for or recommend purchasing, leasing,
  or ordering any good, facility, service or item for which
  payment may be made in whole or in part under a medical
  assistance program, may be fined not more than $25, 000 or
  imprisoned for not more than 5 years or both.
WISC. STAT. ANN. ~   49. 45   Medical Assistance: Administration


  (9s) Disclosure Any person who is an employee of, or an
  owner, partner, stockholder or investor in, any legal entity
  providing services which are reimbursed under this section,
  shall notify the department, on forms provided by the


  section.
  department for that purpose, if such person is an employee of,
  or an owner, partner, stockholder or investor in, any other
  legal entity providing services which are reimbursed under this


WISC. STAT. ANN. i 448. 08. Fee Solittina: seoarate billina
reQUired. oartnershios and corporations: contract exceotions.
  (1)       Fee Solittina Except as otherwise provided in this
  section, no person licensed or certified under this chapter may
  give or receive , directly or indirectly, to or from any person,
  firm or corporation any     fee, commission, rebate or other form
  of compensation or anYthing of value for sending, referring or
  otherwise inducing a person to communicate with a licensee in a
  professional capacity, or for any professional services not
  actually rendered personally or at his or her direction.
